TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Criminal Investigation Function Should
                 Consider Changes to Its Custody of Original
                 Tax Returns and Controls for Accessing Tax
                         Information Electronically



                                           January 2006

                              Reference Number: 2006-10-028




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  January 4, 2006


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Criminal Investigation Function Should
                               Consider Changes to Its Custody of Original Tax Returns and Controls
                               for Accessing Tax Information Electronically (Audit # 200410038)

 This report presents the results of our review to determine whether the Criminal Investigation
 (CI) function adequately controls its custody of original tax returns1 and use of tax return
 information.2

 Synopsis
 CI function personnel routinely access and use tax returns and tax information during the course
 of their investigations. Disclosure laws govern access to such information. The CI function
 obtains from Internal Revenue Service (IRS) storage facilities and the Federal Records Centers
 the original paper tax returns filed by the subjects of its tax investigations, the premise being the
 tax returns are an item of evidence. In addition to accessing tax returns, CI function personnel
 access IRS databases and view tax information on the Integrated Data Retrieval System (IDRS)3
 during the course of an investigation or when evaluating potential cases. In instances where the
 investigation has no direct connection to a tax-related charge and the CI function has not
 designated that the investigation is otherwise related to tax administration, CI function personnel

 1
   A return is any tax return or information return, schedules, and attachments, including any amendment or
 supplement, which is required or permitted to be filed and is filed by a taxpayer with the Secretary of the Treasury.
 2
   The statutory definition of return information is very broad and primarily relates to information that did not come
 from the taxpayer. It includes information extracted from a return, e.g., the names of dependents, locations of
 business interests, and bank accounts.
 3
   The IDRS is a system which enables IRS employees in the campuses and the Area Offices to have instantaneous
 visual access to certain taxpayer accounts. Requests to have original documents charged out to an IRS employee or
 requests to have paper transcripts prepared are also input via the IDRS.
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically


do not have an inherent right to unilaterally access or use any tax returns or tax return
information.4 Disclosure and use of specified tax information by the CI function in those
instances is allowed only pursuant to disclosure provisions, such as those involving a court order
or other agency request.
The CI function’s Review and Program Evaluation reviews5 had identified control weaknesses in
some field offices’ custody of original tax returns. In response to the Treasury Inspector General
for Tax Administration’s request for suggestions for Fiscal Year (FY) 2004 audit coverage, the
former Chief, CI, cited controls of tax returns as a management concern due to the anticipated
lack of support staff in the field office locations caused by budgetary shortfalls. Our canvass of
CI function field offices in January 2005 indicated there were about 216,000 original tax returns
in the custody of 237 separate groups across 33 field offices.6 Our analysis of June 2005 IRS
personnel data indicated 88 of the groups did not have a Compliance Support Assistant (CSA) on
the group’s roster.7 The CI function’s FY 2005 new-hiring plans included the addition of 99
support staff, of which 42 would be CSAs, to address locations that had vacancies. We were
advised by CI function Headquarters that 38 CSA positions were actually filled during FY 2005.
Our site visits to seven groups within three field offices verified that original tax returns were
adequately safeguarded. We also identified that tax return inventory (TRI) database users were
generally not fully using all the features of the system which can assist them as custodians, and
some groups did things contrary to the most efficient use of the TRI database. Users generally
did not use fields present in the TRI database to record when tax returns were temporarily
charged out of their custody and when a tax return was initially requested from files for an
investigation. System-generated reports for follow-up purposes would be available if those
fields were used.
Securing the original tax returns needed as evidence has been problematic for the CI function. A
task force found the CI function needs to educate its support staff personnel who request tax
returns regarding items such as the proper document locator number to request and how to
interpret the notations made on document requests that are returned unfilled. This would assist
the staff in following up with other parties that have the document charged out or otherwise
understanding if the document is available and/or what happened to it. We believe it may be


4
  The CI function defines as tax-related those investigations relating to violations of any statute within United States
Code (U.S.C.) Title 26 (Internal Revenue Code) or Title 26 related false claims and conspiracy statutes at
18 U.S.C. §§ 286, 287, or 371 (2004). The most prominent nontax-related statutes the CI function has jurisdiction
for relate to money laundering statutes 18 U.S.C. §§ 1956 and 1957 (2004).
5
  Review and Program Evaluation reviews assess local CI function operations and managerial effectiveness on a
3-year cycle to ensure a field office is in alignment with the CI Strategy and Internal Revenue Manual standards.
6
  This figure does not include tax returns in the custody of other CI function programs such as Fraud Detection
Centers and Lead Development Centers.
7
  The CSA position normally would be assigned the tax return inventory duties. However, it is likely that there is
some overlap of duties with other support staff positions, such as Tax Fraud Investigative Aides.
                                                                                                                       2
                The Criminal Investigation Function Should Consider Changes to
                 Its Custody of Original Tax Returns and Controls for Accessing
                                 Tax Information Electronically


more effective if a centralized group of support personnel, who could be more thoroughly
trained, are responsible for resolving document retrieval issues. In addition, centralizing the tax
return inventory might be a means to reduce the custodial workload at the field offices. Finally,
the CI function’s centralized document conversion center may be able to reasonably implement
an electronic approach for case file copies of tax returns.
The CI function’s involvement with electronic tax information is extensive. During FY 2004,
CI function personnel accessed over 1.3 million unique taxpayers’ tax information. This
included about 407,000 requests for original paper filed tax returns, about 130,000 requests for
printed images of electronically filed tax returns, and about 1.4 million requests for line item
information transcribed from tax returns. The overarching issue in this area is the balancing of
the CI function’s freedom to quickly, easily, and efficiently access information it is allowed to
use during the course of its investigations with the adequacy of control features to help ensure
accesses are appropriate, approved, and supported, and any unauthorized accesses would be
deterred or detected. Our site visits indicated that supporting documentation to show the
connection of an access to a particular investigation generally was either not readily available or
did not exist. Without such support, the CI function faces an increased risk that tax returns and
return information are being accessed without proper authority to do so. We believe additional
basic controls could accentuate the deterrence effect on users of tax information, in addition to
improving the CI function’s ability to retrieve useful information regarding the nature of an
access in instances where that becomes necessary.
We were unable to complete, within our audit’s time period, some audit steps designed to
determine if CI function accesses to tax information were authorized for tax administration
purposes. CI function National Headquarters officials informed us that their Criminal Tax
Counsel had advised that certain information could not be provided to us without potentially
violating the secrecy provisions of the grand jury process. The area of nontax-related cases rests
squarely in the domain of grand jury investigations (i.e., 97 percent of the total nontax-related
cases are grand jury). We consider the disclosure of tax information on nontax-related cases to
be an area where even a few missteps could have significant repercussions for the IRS. We
continue to work with CI function National Headquarters officials to develop a protocol that will
allow us to access the data necessary to perform audit tests without compromising any grand jury
process rules. The results of our analysis of tax information accesses on nontax-related cases
will be reported in a subsequent audit report after an agreement on a protocol can be reached.

Recommendations
To assist the CI function in fulfilling the responsibilities associated with custody of original tax
returns, we recommended the Chief, CI, develop and distribute an electronic online awareness
program to provide sufficient information to group supervisors and support personnel that use
the TRI database to ensure they know how to fully use the system’s control features. We also

                                                                                                       3
                The Criminal Investigation Function Should Consider Changes to
                 Its Custody of Original Tax Returns and Controls for Accessing
                                 Tax Information Electronically


believe the CI function should consider if its concerns regarding the ongoing custody of original
tax returns at its field offices could be alleviated by centralizing custody at a single location. We
recommended the Chief, CI, have the Tax Return Task Force study the pros and cons of
centralizing custody of the tax return inventory. To help clarify how current case building trends
relate to the custody issue, we also recommended the CI function gather data through the Review
and Program Evaluation program regarding the extent that field office special agents actually
rely on original tax returns (as opposed to copies of tax returns) during the interview and
investigation process to achieve successful prosecution recommendations.
Given the sensitivity of taxpayer information, we believe it would be prudent for the CI function
to improve the basic control procedures for accessing tax information electronically. We
recommended the Chief, CI, develop a standard IDRS input request and supporting form that
includes a space for a brief statement to explain the reason for the access, require the form be
used, and require supervisory (or possibly an assisting designee) approval, either before or after
input. In addition, we recommended that periodic IDRS activity reports be provided to the CI
function’s group supervisors so they can monitor the input history of personnel in their groups.

Response
The Chief, CI, agrees the CI function’s current procedures provide sufficient safeguards for
original tax returns, but also recognizes that improvements are always possible. The Chief, CI,
agreed with two of the five recommendations and partially agreed with the others. For example,
the Chief, CI, agreed to issue guidance highlighting the various TRI database features, and to
remind Supervisory Special Agents of the usefulness and availability of IDRS security reports as
a management oversight tool.
While agreeing to consider changes and take actions in response to other recommendations, the
Chief, CI, did not immediately or fully adopt the remaining three recommendations. Instead, the
CI function will take slightly different corrective actions or other intermediate steps to study the
most substantial recommendations before considering them for potential future implementation
in a modified fashion. Specifically, the CI function will consult with the Department of Justice
Tax Division and Criminal Tax Counsel to determine the viability of using copies or images of
tax returns in lieu of the originals during the investigative process. Once legal opinions are in
hand, the CI function will study the matter further, if warranted. The Chief, CI, responded that
because our recommendation to consider centralizing the tax return custody calls for the study of
potential operating procedural changes beyond the scope and insight of their tax return task force
as presently comprised, the CI function’s senior staff will evaluate the recommendation further to
determine whether a different task force should be convened at a later date. We accept these
proposed alternative actions.
Regarding their controls for accessing tax information electronically, the Chief, CI, wishes to
remain cautious in implementing the recommendation fully as it would add additional
                                                                                                    4
               The Criminal Investigation Function Should Consider Changes to
                Its Custody of Original Tax Returns and Controls for Accessing
                                Tax Information Electronically


administrative burden on the field offices. After obtaining input from various levels in the
organization, the CI function will determine the feasibility of implementing the full
recommendation. While we do not disagree with the CI function’s desire to study the issue, we
continue to believe that a procedure to create adequate documentation to support the accesses
made to tax information is a basic control procedure that would not be onerous and, that without
such support, the risk of IDRS accesses without proper business purposes is increased.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                   5
                     The Criminal Investigation Function Should Consider Changes to
                      Its Custody of Original Tax Returns and Controls for Accessing
                                      Tax Information Electronically




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Effective Procedures Were in Place to Control Custody of Original Tax
          Returns, but Some Features of the Tax Return Inventory Database Were
          Not Being Used.............................................................................................Page 5
                    Recommendation 1:........................................................Page 6

          Centralizing the Tax Return Inventory Should Be Considered to Reduce
          the Custodial Workload at the Field Offices.................................................Page 7
                    Recommendations 2 and 3: ..............................................Page 10

          Supporting Documentation Was Not Readily Available to Show
          Electronic Accesses to Tax Return Information Were for Tax
          Administration Purposes...............................................................................Page 11
                    Recommendations 4 and 5: ..............................................Page 14

          Use of Tax Return Information in Nontax-Related Cases Could Not Be
          Evaluated Without Entering a Protracted Process to Get Data Related
          to Grand Jury Cases ......................................................................................Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Management’s Response to the Draft Report ......................Page 24
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically




                                              Background

Among the most basic of a taxpayer’s privacy rights is an expectation the Internal Revenue
Service (IRS) will keep personal and financial information confidential. In general, the
allowable ways in which the IRS can use tax returns1 and tax information,2 and, conversely, the
required protections the IRS must apply to limit access to such information are guided by laws
that are referred to, collectively, as disclosure laws. The most pertinent disclosure provisions
regarding the IRS are contained in Internal Revenue Code (I.R.C. or Tax Code) Section (§) 6103,
“Confidentiality and disclosure of returns and return information.”3
Because the Criminal Investigation (CI) function’s
mission is to investigate potential criminal violations of         The CI function’s access to tax
the Tax Code and related financial crimes, CI function             returns and tax information is
personnel routinely access and use tax returns and tax              governed by disclosure laws.
information during the course of their investigations. The
disclosure of tax information to CI function personnel for
this purpose is specifically allowed by I.R.C. § 6103 (h)(1)(2004), which makes tax information
open to officers and employees of the Department of the Treasury without written request when
official duties require such for tax administration purposes. Even when the matters being
investigated are not specifically within the tax statutes of the I.R.C., the CI function has a
procedure that allows managers to declare that an investigation is “related to tax administration.”
The CI function made such a related statute call in about 250 investigations during Fiscal Year
(FY) 2004.
Conversely, in instances where the CI function investigation has no direct connection to a
tax-related charge and the CI function has not designated that the investigation is otherwise
related to tax administration, CI function personnel do not have an inherent right to unilaterally
access or use any tax returns or tax return information.4 In such situations when CI function
personnel are enforcing laws not relating to tax administration, the disclosure and use of
specified tax information is allowed only when the requirements of I.R.C. § 6103 (i)(2004) are

1
  A return is any tax return or information return, schedules, and attachments, including any amendment or
supplement, which is required or permitted to be filed and is filed by a taxpayer with the Secretary of the Treasury.
2
  The statutory definition of return information is very broad and primarily relates to information that did not come
from the taxpayer. It includes information extracted from a return, e.g., the names of dependents, locations of
business interests, and bank accounts.
3
  26 United States Code (U.S.C.) § 6103 (2004).
4
  The CI function defines as tax-related those investigations relating to violations of any statute within
U.S.C. Title 26 (Internal Revenue Code) or Title 26 related false claims and conspiracy statutes at
18 U.S.C. §§ 286, 287, or 371 (2004). The most prominent nontax-related statutes the CI function has jurisdiction
for relate to money laundering statutes 18 U.S.C. §§ 1956 and 1957 (2004).
                                                                                                              Page 1
                  The Criminal Investigation Function Should Consider Changes to
                   Its Custody of Original Tax Returns and Controls for Accessing
                                   Tax Information Electronically



met, such as pursuant to and upon the granting of an order by a Federal district court judge or
magistrate, or through the fulfillment of a request from another Federal agency or Department of
Justice officials.
The CI function obtains from IRS storage facilities and the Federal Records Centers the original
paper tax returns filed by the subjects of its tax investigations, the premise being the tax returns
are an item of evidence. The CI function field offices that conduct investigations retain custody
of original tax returns for the duration of an investigation because special agents may need the
tax returns for “signature verification” by a taxpayer, for forensic analysis, or to present to a
grand jury or at trial proceedings. The CI function’s guidelines for tax return inventory control
require the field offices to maintain a separate record of all original tax returns in its custody, to
provide appropriate security for original tax returns to prevent unauthorized disclosures, and to
not retain original tax returns longer than necessary. Our canvass of CI function field offices in
January 2005 indicated there were about 216,000 original tax returns in the custody of
237 separate groups across 33 field offices.5
However, when cases actually go to court, there is legal support for using authenticated copies of
tax returns in the trial process. The process of authenticating a copy of a tax return involves the
preparation of a certification statement by an officially designated custodian of the records. The
CI function field offices forward the original tax returns to a Court Witness Coordinator located
at a Fraud Detection Center to accomplish this. Department of Justice guidance states that
arrangements should be made to provide substitute copies of tax returns to the Court, if possible;
however, the original copies should always be available in the courtroom for use if the need
arises.
The CI function’s Review and Program Evaluation
reviews6 had identified control weaknesses in some field      CI function management was
offices’ custody of original tax returns. In response to the   concerned about a potential
Treasury Inspector General for Tax Administration’s          lack  of support staff needed to
                                                                control the custody of tax
request for suggestions for FY 2004 audit coverage, the                   returns.
former Chief, CI, cited controls of tax returns as a
management concern due to the anticipated lack of support staff in the field office locations
caused by budgetary shortfalls. Our analysis of June 2005 IRS personnel data indicated 88 of
237 CI function groups did not have a Compliance Support Assistant (CSA) on the group’s
roster.7 The CI function’s FY 2005 new-hiring plans included the addition of 99 support staff, of



5
  This figure does not include tax returns in the custody of other CI function programs such as Fraud Detection
Centers and Lead Development Centers.
6
  Review and Program Evaluation reviews assess local CI function operations and managerial effectiveness on a
3-year cycle to ensure a field office is in alignment with the CI Strategy and Internal Revenue Manual standards.
7
  The CSA position normally would be assigned the tax return inventory duties. However, it is likely that there is
some overlap of duties with other support staff positions, such as Tax Fraud Investigative Aides.
                                                                                                             Page 2
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically



which 42 would be CSAs, to address locations that had vacancies. We were advised by CI
function Headquarters that only 38 CSA positions were actually filled during FY 2005.
When original tax returns are maintained in the custody of CI function groups, there are costs
associated with providing space, storage cabinets, and personnel designated to perform the tasks
of custodians. In an environment of tight budgets and staff vacancies, there is an inherent risk
that affected field offices might experience substandard security in the area of controlling
original tax returns if other investigative support tasks also needed from its available personnel
are deemed to be a higher priority at the time.
In addition to accessing tax returns, CI function personnel access IRS databases and view tax
information on the Integrated Data Retrieval System (IDRS)8 during the course of an
investigation or when evaluating potential cases or identifying an individual or entity without
initiating an investigation. In instances where tax returns were electronically filed, there is no
traditional paper tax return to obtain as an item of evidence. There is, of course, still tax return
information that is created by an electronically filed return. CI function personnel have the
freedom to conduct tax account research without it being required to be associated with a formal
case number. Normally, the responsibility for accessing the IDRS system to display tax
information, generating transcripts of tax information, and requesting that tax returns be charged
out to a group is centralized with group clerks and investigative aides. However, where field
offices are affected by shortages in support staff personnel, special agents may have the ability to
access IDRS directly to obtain the necessary tax information. Our review of IDRS audit trail
data9 indicated that CI function personnel, including 137 special agents in 20 of the field offices,
accessed tax information for over 1.3 million unique taxpayers during FY 2004.
This review was performed at seven CI function groups
organizationally located within the Cleveland, Ohio;                            Field offices had custody of
San Diego, California; and St. Louis, Missouri, field                          about 216,000 tax returns, and
                                                                                  the CI function also had
offices during the period January through August 2005.                          accessed tax information on
We also evaluated data representing all field offices                            over 1.3 million taxpayers
nationwide as included in the CI function’s Management                                during FY 2004.
Information System (CIMIS)10 and the IDRS audit trail
file.



8
  The IDRS is a system which enables IRS employees in the campuses and the Area Offices to have instantaneous
visual access to certain taxpayer accounts. Requests to have original documents charged out to an IRS employee or
requests to have paper transcripts prepared are also input via the IDRS.
9
  An audit trail in this context is an automatic electronic chronological record of system activities that is sufficient to
permit reconstruction, review, and examination of a transaction.
10
   The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.
                                                                                                                   Page 3
               The Criminal Investigation Function Should Consider Changes to
                Its Custody of Original Tax Returns and Controls for Accessing
                                Tax Information Electronically



We were unable to complete, within our audit’s time period, some planned audit steps designed
to determine if CI function accesses to tax information were authorized for tax administration
purposes. The CI function’s Criminal Tax Counsel advised that certain information could not be
provided to us without potentially violating the secrecy provisions of the grand jury process. We
continue to work with CI function National Headquarters officials to develop a protocol that will
provide us with sufficient evidence for these tests. The results of our analysis of tax information
accesses on nontax-related cases will be reported in a subsequent audit report after an agreement
on a protocol can be reached.
With the exception of the scope limitation described above, the audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 4
                  The Criminal Investigation Function Should Consider Changes to
                   Its Custody of Original Tax Returns and Controls for Accessing
                                   Tax Information Electronically




                                       Results of Review

Effective Procedures Were in Place to Control Custody of Original Tax
Returns, but Some Features of the Tax Return Inventory Database
Were Not Being Used
The CI function has a tax return inventory (TRI) database system designed to control the request,
receipt, inventory, and disposition of income tax returns processed in and through the CI
function. This application is for use at the group level, typically with one support staff person in
the group designated as the user. The various TRI systems across the country are not
interconnected, but the same database is to be used consistently in all locations.
Our site visits to seven groups within three field offices
verified that the designated TRI user in each group had               CI function field offices
exclusive control of the database and custody of all               controlled and safeguarded
original tax returns in locked cabinets. Also according to            the original tax returns.
procedure, group special agents worked from a copy of an
original tax return supplied by the designee and did not
normally retain the originals for extended periods. To ensure the effectiveness of their controls,
the field offices annually performed as required a 100 percent physical verification of every
original tax return in their custody, identified discrepancies, and took actions to correct them. In
each group that we visited, we also tested a random sample of at least 50 tax return records in the
TRI database to verify they were actually present in the group and a random sample of 50 tax
returns present in the locked cabinets to verify they were actually recorded in the TRI database.
In total, we compared 430 database records to tax returns in the cabinets and compared 350 tax
returns from the cabinets to the database records. We identified only isolated discrepancies and
concluded that on an internal control level, original tax returns were controlled and safeguarded.
In one group, we identified issues in our sample verification that led us to expand our review and
we identified significant accuracy problems with that group’s TRI database.11 We believe the
group’s next 100 percent physical verification would have likely identified these issues.
While original tax returns were adequately safeguarded, we also identified the TRI database
users were generally not fully using all the features of the system which can assist them as


11
  The issues included a special agent transferring into the group with 44 original tax returns which did not get
recorded in the group’s TRI database, 3 tax returns were not recorded as being part of a large group of tax returns
sent to the unit that generates certified copies for trial evidence, and several other isolated recordkeeping
discrepancies.
                                                                                                              Page 5
               The Criminal Investigation Function Should Consider Changes to
                Its Custody of Original Tax Returns and Controls for Accessing
                                Tax Information Electronically



custodians, and some groups did things contrary to the most efficient use of the TRI database.
We believe it was evident that the following issues occurred due to a lack of awareness by the
users and group supervisors regarding the features of the TRI database and the proper use of it as
an inventory control.
       •   Users generally did not use a field present in the TRI database to record when tax
           returns were temporarily charged out of their custody. If this feature was used, a list
           of all outstanding charge-outs could be immediately system generated for
           accountability purposes. Instead, paper charge-out sheets or logs were commonly
           used, but they tended to be scattered, inaccurate, and lacked detail.
       •   Users generally did not use a field present in
           the TRI database to record when a tax return        Users were not always fully
           was initially requested from files for an          using the tax return database
           investigation. If this feature was used, a list of            features.
           all unfilled requests could be immediately
           system generated for periodic follow-up. Instead, paper reminders were generally
           kept.
       •   Two groups (within two different field offices) had been controlling the printed
           images of electronically filed tax returns obtained by the group in its TRI databases
           when such was not necessary. While those images are tax return information, they do
           not represent actual original tax returns. Controlling those items in the TRI database
           could increase both the custodian’s workload and the effort necessary to conduct the
           periodic 100 percent physical verifications.
       •   One group had replaced its TRI database records with a stand-in spreadsheet system
           to control its inventory of original tax returns on-hand because it felt its version of the
           TRI database had been corrupted. Thus, the group custodian did not have use of any
           of the TRI database record-keeping features for about 8 months while this situation
           remained unresolved until the time of our review.

Recommendation
Recommendation 1: The Chief, CI, should develop and distribute an electronic online
awareness program to provide sufficient information to group supervisors and support personnel
that use the TRI database to ensure they know how to fully use the system’s control features,
access TRI user guide materials, and achieve uniformity as to what documents are controlled.
       Management’s Response: The Chief, CI, agreed to issue guidance highlighting the
       various TRI database features available for use and remind the field on how to access the
       online handbook. There is a TRI database handbook already available online for all CI
       function personnel to reference. It identifies the features noted in the report and details

                                                                                               Page 6
               The Criminal Investigation Function Should Consider Changes to
                Its Custody of Original Tax Returns and Controls for Accessing
                                Tax Information Electronically



       their use. Additional information summarizing the TRI database features could benefit
       field office personnel, especially those who are unaware of the online handbook.

Centralizing the Tax Return Inventory Should Be Considered to
Reduce the Custodial Workload at the Field Offices
The CI function’s Internal Revenue Manual (IRM) procedures direct personnel to view tax
information when evaluating potential cases and to obtain original tax returns before
interviewing the subject of an investigation. The IRM specifies CI function special agents must
have custody of the original tax returns involved as a prerequisite to independently interviewing
a subject or that subject’s representative. The IRM also states if the investigation deals with an
alleged false or fraudulent tax return, the special agent shall obtain a statement under oath from
the person who prepared the tax return (e.g., a tax professional paid by the subject to prepare the
tax return). Ultimately, the original tax returns in a criminal tax case are items of evidence. The
IRM specifies the special agent should secure documents in the custody and control of the IRS
that will be used at trial, including all available original tax returns.
While we recognize the importance of and the necessity
for the CI function to promptly secure possession of the           The custody of original tax
original tax returns for the reasons described, we question       returns could be centralized
whether the tax returns need to be maintained locally at         rather than maintained at each
each CI function group location. We believe the CI                       group location.
function should consider if its concerns regarding the
ongoing custody of tax returns at its numerous field offices could be alleviated by centralizing
the storage of original tax returns for evidence custody purposes at a single location. In lieu of
the original documents being in the groups, copies could be used during the investigative process
unless original tax returns are necessary in the field on a case-by-case basis.

Special agents do not frequently handle the original tax returns
Even though the IRM language sounds like absolute requirements for having original tax returns
in the hands of the special agents, we observed during our site visits that the original tax returns
maintained by the field offices are not usually handled much by special agents during their
investigations. In general, group support personnel make photocopies of all tax returns requested
for investigative cases to provide the special agents with working copies for their case files, and
the custodians retain exclusive custody of the originals in their locked cabinets. As mentioned
previously in the background information, there were 237 separate groups that had custody
responsibilities for original tax returns, with the average inventory per group about 900 tax
returns.
In some instances, original tax returns are indeed handled by a special agent and may even be
forensically analyzed when circumstances dictate (i.e., for fingerprints or handwriting analysis).

                                                                                             Page 7
                The Criminal Investigation Function Should Consider Changes to
                 Its Custody of Original Tax Returns and Controls for Accessing
                                 Tax Information Electronically



When necessary, handling of original tax returns to evaluate their evidence value will need to
continue. However, in many instances, based on our interviews of group personnel and our
review of charge-out records, original tax returns received in the groups evidently are not often
handled by the special agents. There are several reasons this may occur:
   •   The subject may not ever be interviewed by the special agent, depending on the case
       circumstances.
   •   The signature verification step may not be considered as being necessary, or the working
       copies may be considered to be just as effective as originals for a signature verification
       (unless the subject denies the signature as their own).
   •   Many of the original tax returns obtained by the group are not the returns of the subject of
       an investigation, but are the returns of a taxpayer that was associated with the subject and
       were obtained for informational purposes.
Charge-out records were kept by varying methods and in
varying degrees of accuracy in the seven CI function field        Group records did not show
office groups where we did onsite visits. We observed              original tax returns being
that each group appeared to have had, at most, only             charged out very frequently by
several instances each out of the hundreds of taxpayers in              special agents.
their inventories during FY 2004 where special agents had
charged out original tax returns for a period of time. Based on those records, and in conjunction
with discussions we had with personnel in the groups, we do not believe the original tax returns
are used as a matter of rule during the preliminary stages of an investigation (e.g., for a step such
as signature verification with the subject) and may not be a necessity until the issue of generating
authenticated copies is encountered for prosecution recommendations.

Actually securing the tax returns needed as evidence has been problematic
An original tax return, when one exists, is in fact a piece of evidence. We acknowledge that the
CI function’s experiences indicate original tax returns must be secured from IRS files as soon as
possible because the prospects of securing tax returns decrease over time as the tax returns flow
through the IRS’ records retention and disposition cycle and to the Federal Records Centers.
As mentioned in the background information, CI function special agents use the IDRS to submit
an electronic request (group support personnel generally do the actual inputting) that is routed to
the applicable IRS files unit or Federal Records Center to cause an original tax return to be
charged out to their group. The charge-out request is input at a local IDRS terminal and the tax
return is pulled from files and shipped to the specified group location where it is secured in the
aforementioned manner. The CI function’s experiences are that this process does not always
result in its obtaining the requested tax returns on the initial attempt. The CI function had a Tax
Return Task Force in place at the end of FY 2004, and the following was part of the task force’s
status as described in the CI function’s Business Performance Review document at that time:

                                                                                              Page 8
                The Criminal Investigation Function Should Consider Changes to
                 Its Custody of Original Tax Returns and Controls for Accessing
                                 Tax Information Electronically



       Planning and Strategy designed a survey to determine whether, and to what
       extent, the field continues to experience delays in obtaining original tax returns.
       Although some respondents stated they had not experienced any perceptible
       delays, the majority of respondents are still frustrated with the length of time
       needed to obtain returns. Examples frequently cited include the need to reorder
       the same return multiple times and the difficulty in obtaining returns that had
       previously been charged-out. Criminal Investigation will also partner with Wage
       and Investment (W&I) Submissions Processing to identify the reasons behind the
       delays in obtaining returns and suggest possible solutions.
CI function management informed us that as the task force
progressed, one of the findings was the CI function needs          Document retrieval issues
to educate its support staff personnel who request tax             might be more effectively
returns regarding items such as the proper document               resolved by a better trained
locator number to request and how to interpret the                  and specialized support
                                                                            group.
notations made on document requests that are returned
unfilled. This would assist the staff in following up with
other parties that have the document charged out or otherwise understanding if the document is
available and/or what happened to it. As we alluded to earlier, since each group is involved with
obtaining and securing its own tax returns, there is in essence somewhere around 237 separate
individuals that at times must attempt to follow up on unfilled requests. Based on the historical
perspective presented by the task force, in conjunction with discussions we had with personnel in
the groups who also described problems relating to this task, we believe it may be more effective
if a centralized group of support personnel, who could be more thoroughly trained, are
responsible for resolving document retrieval issues.

The centralized document conversion center may be able to reasonably
implement an electronic approach for case file copies of tax returns
One feature that a centralized approach would require
would be an ability to subsequently provide copies of tax           Electronic images of tax
returns (in whole or in part) to the CI function field office   returns as evidence fit into the
locations that need to view return information for               CI function’s long term goals.
investigative purposes. In the past few years, the CI
function has had a goal to support and advance the use of electronic case files in its investigative
process. To encourage this, the CI function already has a specialized document conversion
center that advertises a scanning capability of 100,000 pages per day. This unit translates paper
evidence into electronic evidence, with a goal of allowing investigative teams and prosecutors to
move files among themselves to share information and potentially presenting such evidence in
courtrooms with those capabilities. The transfer of tax return images from the document
conversion center to the end users would be in electronic format, such as by emails, compact


                                                                                             Page 9
                The Criminal Investigation Function Should Consider Changes to
                 Its Custody of Original Tax Returns and Controls for Accessing
                                 Tax Information Electronically



disks, external drives, or other means based on the amount of data that needs to be moved. End
users (such as special agents) could then print out the images if they desired.

Recommendations
Recommendation 2: The Chief, CI, should direct the CI function’s Tax Return Task Force to
study the pros and cons of centralizing the custody of the tax return inventory, including the
aspects of resolving unfilled requests, providing electronic images of original documents,
providing original documents when necessary, storing the inventory, and coordinating the
preparation of authenticated copies for Court proceedings. If the Tax Return Task Force has
finished its original assignment, the group should reconvene for this purpose.
       Management’s Response: The Chief, CI, agrees in concept with the
       recommendation but will not immediately adopt this recommendation. The CI function
       constantly strives to maximize the efficiency of its support staff. Centralization of the tax
       return inventory could result in increased productivity of field office support staff as the
       report suggests. However, it could also be problematic for a variety of reasons. All
       benefits and disadvantages would need to be thoroughly evaluated before such a
       centralized system could be instituted. Because this recommendation calls for the study
       of potential operating procedural changes beyond the scope and insight of the tax return
       task force as presently comprised, the CI function will not immediately adopt it.
       However, the CI function’s senior staff will evaluate the recommendation further to
       determine whether a different task force should be convened at a later date.
Office of Audit Comment: We accept the alternative action proposed by management. The
only factors in the response that deviate from the specific recommendation are who might
conduct further study of the issues within the CI function and when that might occur. We will
ask the Chief, CI, to supplement the response with a proposed implementation date for
determining whether a task force will be convened.
Recommendation 3: The Chief, CI, should have the Director, Strategy, insert an objective
into the Review and Program Evaluation plan to gather data regarding the extent that field office
special agents actually rely on original tax returns (as opposed to copies of tax returns) during the
interview and investigation process to achieve successful prosecution recommendations.
Ultimately, the data gathered from various field offices should be considered to determine if the
current IRM language emphasizing the use of original tax returns still reflects the CI function
standard or if the IRM language warrants revision based on current case building trends.
       Management’s Response: The Chief, CI, is not adopting this specific
       recommendation. However, the CI function will consult with the Department of Justice
       Tax Division and Criminal Tax Counsel to determine the viability of using copies or
       images of tax returns in lieu of the originals during the investigative process. Once legal
       opinions are in hand, they will study this matter further, if warranted.

                                                                                            Page 10
                The Criminal Investigation Function Should Consider Changes to
                 Its Custody of Original Tax Returns and Controls for Accessing
                                 Tax Information Electronically



Office of Audit Comment: We accept the alternative action proposed by the Chief, CI. The
only factor in the response that deviates from the specific recommendation is that the CI function
wants to determine the legal aspects relating to the issue as the initial step in a process that
should ultimately end up in the CI function evaluating whether changes are warranted.

Supporting Documentation Was Not Readily Available to Show
Electronic Accesses to Tax Return Information Were for Tax
Administration Purposes
The CI function’s involvement with tax information is extensive. During FY 2004, CI function
personnel accessed tax information associated with over 1.3 million unique taxpayers. This
included about 407,000 IDRS command code requests for original paper filed tax returns, about
130,000 command code requests for printed images of electronically filed tax returns, and about
1.4 million command code requests for line item information transcribed from tax returns. These
command codes were part of a total of over 17 million command code inputs made by CI
function personnel, the majority of which were requests for tax information.
As mentioned in the background information, the
responsibility for accessing the IDRS to gather relevant          The overarching issue is the
tax information usually rests with group support                  balance between easy access
personnel. However, we identified 137 field office special       and  adequate  controls to help
                                                                   ensure appropriate access.
agents who accessed IDRS directly for a total of nearly
310,000 inputs. The overarching issue in the area of
electronic access to tax information is the balancing of the CI function’s freedom to quickly,
easily, and efficiently access information it is allowed to use during the course of its
investigations with the adequacy of control features to help ensure accesses are appropriate,
approved, and supported, and any unauthorized accesses would be deterred or detected.
While it is reasonable to consider the existence of a tax investigation controlled within the
CIMIS as basic support for accessing that subject’s tax information, the majority of IDRS inputs
by CI function personnel were not for information on numbered subjects. Many of the IDRS
inputs relate to associates of a subject or to persons and entities somehow related to the
investigation. Another portion of the IDRS inputs relate to the CI function’s evaluation of
investigative leads or allegations prior to a case being initiated on the CIMIS. If the information
is not deemed to be worthy of investigation, there would be no record of that potential subject
captured within the CIMIS that would support the IDRS accesses. The connection to an
investigative step for many of the CI function’s electronic accesses to tax information will
inherently not be obvious. In addition, there is a disclosure limitation that when an investigation
has no direct connection to a tax-related charge, CI function personnel do not have an inherent
right to access tax return information.



                                                                                            Page 11
                  The Criminal Investigation Function Should Consider Changes to
                   Its Custody of Original Tax Returns and Controls for Accessing
                                   Tax Information Electronically



Our site visits to seven groups within three field offices
indicated that supporting documentation to show the                 Documentation to support
connection of an access to a particular investigation             access to tax information was
                                                                 not always available or did not
generally was either not readily available or did not exist.                  exist.
In each group we visited, we tested random samples of
20 inputs that accessed line item information transcribed
from tax returns and 20 inputs from other command codes used.12 All of the samples were
derived from the IDRS audit trail record where the input Taxpayer Identification Number (TIN)13
did not match to a TIN within the population of subject TINs provided to us by the CI function.
In total, we pursued supporting documentation within each group’s centralized files that might
show the reason for the access for 292 IDRS inputs. The primary source for determining the
reason for a particular IDRS access was the retained copies of input request forms maintained by
the group support staff that did the inputs. We limited our reviews to relatively small initial
sample sizes because these input request forms were generally informally maintained and
organized and in essence were not intended to be a researchable source of information. We were
able to locate the input request forms in nearly 59 percent of our sampled inputs; however, these
forms did not always contain case identifying information. In other instances, local CI function
personnel located related email messages or case file notations to support the IDRS access or
provided an explanation from personal knowledge.
Given the sensitivity of taxpayer information, we believe it would be prudent for the CI function
to improve the basic control procedures regarding IDRS access to tax information in ways that
will not create an unreasonable burden or act as a detriment to effective information analysis.
The objective of our recommendations regarding this control environment is primarily to
accentuate the deterrence effect on users of tax information, in addition to improving the CI
function’s ability to retrieve useful information regarding the nature of an access in instances
where that becomes necessary.14
We believe the following conditions existed due to an                          Improved basic control
emphasis by the CI function on achieving easy access to                     procedures would be prudent
tax information, under an assumption that all accesses                         given the sensitivity of
                                                                                taxpayer information.
would be appropriate.


12
   We could not test a sample of inputs that requested printed images of electronically filed tax returns as the IDRS
audit trail did not always include specific information to identify what taxpayer account was accessed for this
command code. We referred this audit trail weakness to our Information Technology staff, who advised that certain
identifying information is supposed to be present, and they referred this error to the IRS for correction. We tested
inputs that requested original tax returns in a different manner, using the group TRI database.
13
   A TIN is a nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the
taxpayer, the TIN is either an Employer Identification Number, a Social Security Number, or an Individual TIN.
14
   In the three field offices we visited, group supervisors often commented that, in their opinion, the annual
employee awareness briefing on the IRS’ policy on willful, unauthorized access and inspection of taxpayer records
(referred to as UNAX) was the primary deterrent against inappropriate accesses.
                                                                                                            Page 12
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically



     •   Various forms used by special agents to request that group support personnel input
         specified IDRS command codes to research tax information, obtain account transcripts,
         charge out tax returns, etc., did not have a conspicuous space for the requester to insert a
         brief statement explaining the reason for the access request. Statements were not
         required and were not normally present on the forms we reviewed.15 CIMIS case
         numbers would normally be present if the request related to an existing investigation.
     •   Only one of the three field offices required group supervisor approval of all IDRS actions
         input by the group support personnel. In the other two field offices, only the request
         forms requesting the original tax returns required a group supervisor’s approval; other
         IDRS actions were input without supervisory review and approval.
     •   In two of the three field offices, 28 of the 108 special agents within those field offices had
         the ability to access IDRS themselves. The agents were not required to prepare IDRS
         input forms to get group supervisor approval or to reflect their direct accesses of IDRS.
         Thus, the centralized group files contained no documentation at all regarding those
         inputs.
     •   In the two field offices where special agents input IDRS commands, group supervisors
         were not precisely aware which special agents in their groups had IDRS capabilities and
         which did not. There were no periodic IDRS activity reports provided to the group
         supervisors to allow for monitoring inputs.16
Considering that special agents already must prepare a request form to communicate to support
staff what inputs they want, we do not believe it would be onerous to add a brief supporting
statement in most instances. Likewise, requiring forms from special agents that perform their
own IDRS inputs simply puts them on par with what other agents have to do. If supervisors in
one field office already approve all IDRS input request forms, it appears that is a reasonable task
to implement consistently. Without such support, the CI function faces an increased risk that tax
returns and return information are being accessed without proper authority to do so.




15
   When this condition was discussed at one field office, the Special Agent in Charge stated the local request form
would be modified to add a “Reason for” space and used by all groups.
16
   In one group, a special agent had input over 20,000 research commands during FY 2004, purportedly relating to a
General Investigation assignment that required extensive tax account research on many taxpayers. When made
aware of this, the acting group supervisor at the time of our site visit stated that may not have been an efficient use
of the special agent’s time, as opposed to arranging for a support person to do that amount of research.
                                                                                                              Page 13
               The Criminal Investigation Function Should Consider Changes to
                Its Custody of Original Tax Returns and Controls for Accessing
                                Tax Information Electronically



Recommendations
Recommendation 4: The Chief, CI, should develop a standard IDRS input request and
supporting form that includes a space for a brief statement to explain the reason for accessing tax
information; require the form be used by special agents that perform their own IDRS accesses for
support purposes; and require the form be subject to supervisory (or possibly an assisting
designee) approval for all accesses, either before or after input.
       Management’s Response: The Chief, CI, wishes to remain cautious in
       implementing this recommendation fully to ensure all changes are necessary and,
       accordingly, plans to study the issue. The CI function will review the various IDRS
       request forms and file maintenance procedures currently in use by field offices. After
       receiving input from various levels in the organization, they will determine the feasibility
       and necessity of mandating a standardized request form with supervisory approval for all
       IDRS accesses. In the interim, a memorandum will be issued to the field requiring all
       IDRS access requests be documented with employee names, investigation numbers, and
       the business purpose for the request. This response is because the findings that resulted
       in this recommendation came from a very small sample of overall field office operations
       and the recommended changes would add additional administrative burden on the field.
Office of Audit Comment: While we do not disagree with the CI function’s desire to study
the issue, we continue to believe that a procedure to create adequate documentation to support
the accesses made to tax information is a basic control procedure that would not be onerous and,
that without such support, the risk of IDRS accesses without proper business purposes is
increased.
Recommendation 5: The Chief, CI, should ensure that periodic IDRS activity reports are
provided to the CI function’s group supervisors so they can monitor the input history of
personnel within their groups.
       Management’s Response: The Chief, CI, agreed to remind group supervisors of the
       usefulness and availability of IDRS security reports as a management oversight tool.
       Each field office already has a designated IDRS coordinator responsible for oversight of
       IDRS related security reports. Any identified discrepancies and questionable items
       should result in follow-up and discussion with CI function field office management. This
       process, as currently configured, adequately addresses the basic concern raised in this
       recommendation.




                                                                                           Page 14
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically



Use of Tax Return Information in Nontax-Related Cases Could Not Be
Evaluated Without Entering a Protracted Process to Get Data Related
to Grand Jury Cases
For our use during this audit, the CI function provided us          Data regarding grand jury
with a data extract from its CIMIS of 23,986 TINs for the        cases were not provided to the
subjects of and the related associate persons of its open         TIGTA to allow completion of
investigations during the period of FY 2003 – FY 2004.                 some audit steps.
This was the basic way we could determine if IDRS audit
trail accesses matched to persons that related to a CI function investigation. However, we were
unable to complete some audit steps because the CI function did not provide us with specific data
that would have correlated known IDRS inputs to specific grand jury investigation CIMIS case
numbers. CI function National Headquarters officials informed us that their Criminal Tax
Counsel had advised that the specific information could not be provided to us without potentially
violating the secrecy provisions of the grand jury process.

Tax information accesses in nontax-related investigations
Our analysis of the CIMIS database identified 4,981 subject investigations17 that were in open
status or in the prosecution pipeline18 at some point during FY 2004 that had no direct connection
to a tax-related charge. The nontax nature of the cases was based on the statutory violations the
CI function entered into the CIMIS at the times of the case allegation and, if applicable, the
prosecution recommendation. As mentioned in the background section, CI function personnel do
not have an inherent right to unilaterally access or use any tax returns or tax return information in
a nontax situation. We had designed audit steps to determine if there were any IDRS inputs
made by CI function personnel on these nontax cases and, if so, verify whether they were
appropriate. To identify that scope, we needed to correlate the TINs for the subjects and
associates of the nontax-related case numbers in the CIMIS with the TINs from the audit trail
record of the IDRS.
On Criminal Tax Counsel advice, CI function National Headquarters officials did not provide us
with CIMIS case numbers that correlated to TINs in their data extract on grand jury cases.
Having that data would have allowed us to determine if the 4,853 nontax cases that were grand
jury (i.e., 97 percent of the total nontax cases) involved IDRS accesses to tax information.



17
   A subject investigation is when an individual or entity is alleged to be in noncompliance with the laws enforced by
the IRS and there is potential for criminal prosecution. A subject investigation is a full-scale criminal investigation
to gather pertinent evidence to prove or disprove the existence of a violation.
18
   Investigations where the CI function has made a prosecution recommendation, but where the subsequent legal
process has not yet been completed, are considered to be pipeline cases. CI function personnel may still be active on
pipeline cases in order to assist with trial preparation or to serve as witnesses.
                                                                                                             Page 15
                  The Criminal Investigation Function Should Consider Changes to
                   Its Custody of Original Tax Returns and Controls for Accessing
                                   Tax Information Electronically



For the 128 nontax cases that were not grand jury, we determined the CI function did not access
taxpayer information on 70 cases, and in an additional 37 cases, the CIMIS did not have a TIN
entered for the subject of the investigation to compare to the IDRS audit trail records. In another
five cases, the accesses were done by CI function personnel at a Fraud Detection Center as
opposed to a field office; therefore, we did no further research since we limited the scope of our
review to field office accesses.
We identified a court order in only 1 of the remaining 16 cases that likely allowed the IRS access
to tax information. To resolve the other cases, we would have to review investigative case file
documentation at the field offices to evaluate the appropriateness of the IDRS accesses to tax
information, given the nontax nature of the subject investigation.19
We consider the disclosure of tax information on nontax-related cases to be an area where even a
few missteps could have significant repercussions for the IRS. As our data analysis shows, the
area of risk for the CI function in nontax-related cases rests squarely in the domain of grand jury
investigations. Further, we have indicators from our limited work on nongrand jury cases that
suggest additional reviews of case file documentation is needed to ensure that accesses to tax
information were properly authorized. We will continue to work with CI function National
Headquarters officials to develop a protocol that will allow us to access the data necessary to
perform an audit test such as this without compromising any grand jury process rules. Since we
anticipate the process of continuing an analysis in this area may be relatively time consuming,
the results of our analysis of tax information accesses on nontax-related cases will be reported in
a subsequent audit report after an agreement on a protocol can be reached.




19
  In seven cases, a primary investigation was tax related, but the tax charges did not carry over to the subsequent
subject investigation. A primary investigation can serve as a precursor to a subject investigation.




                                                                                                             Page 16
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically



                                                                                                        Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Criminal Investigation (CI)
function adequately controls its custody of original tax returns1 and use of tax return
information.2 To accomplish this objective, we:
I.       Determined if the CI function had effective procedures in place to control access to
         original tax returns and tax information and to deter and detect unauthorized accesses.
         A. Evaluated Internal Revenue Manual and other procedural guidance relating to the
            CI function’s obtaining and maintaining custody of original tax returns and accessing
            Internal Revenue Service (IRS) information on the Integrated Data Retrieval System
            (IDRS).3
         B. Interviewed Supervisory Special Agents during seven group visits (see II.A) to
            evaluate the local control and security environment and asked for each Supervisory
            Special Agent’s perspective on:
              1. What procedures are likely to deter CI function personnel from unauthorized tax
                 information accesses considering the freedom to conduct IDRS research.
              2. How the budget and staffing environment regarding support personnel affects the
                 group’s ability to meet its tax return custody responsibilities.
              3. How printed images of electronically filed tax returns and printed transcripts of
                 line item information transcribed from tax returns are treated for custody and
                 control purposes.
         C. Obtained IDRS audit trail data4 files containing over 17 million IDRS command code
            inputs by CI function personnel during Fiscal Year (FY) 2004.



1
  A return is any tax return or information return, schedules, and attachments, including any amendment or
supplement, which is required or permitted to be filed and is filed by a taxpayer with the Secretary of the Treasury.
2
  The statutory definition of return information is very broad and primarily relates to information that did not come
from the taxpayer. It includes information extracted from a return, e.g., the names of dependents, locations of
business interests, and bank accounts.
3
  The IDRS is a system which enables IRS employees in the campuses and the Area Offices to have instantaneous
visual access to certain taxpayer accounts. Requests to have original documents charged out to an IRS employee or
requests to have paper transcripts prepared are also input via the IDRS.
4
  An audit trail in this context is an automatic electronic chronological record of system activities that is sufficient to
permit reconstruction, review, and examination of a transaction.

                                                                                                                  Page 17
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically



             1. The data were extracted from the IDRS audit trail universe and transferred to a
                local network server by a Computer Specialist using the Treasury Inspector
                General for Tax Administration Data Center Warehouse files. Due to the large
                volume of data, it was necessary to move the data files in 16 individual segments.
             2. Analyzed and summarized CI function personnel’s IDRS activity reflected by the
                audit trail to identify areas of interest and develop an awareness of the overall tax
                information access environment. For example, we analyzed the IDRS audit trail
                data to identify how prevalent it was that IDRS command codes were input by
                special agents and/or Supervisory Special Agents.
II.      Determined if original tax returns in the custody of the various CI function locations were
         adequately controlled and physically safeguarded.
         A. Selected seven CI function groups, organizationally located within the
            Cleveland, Ohio (two groups); San Diego, California (two groups); and
            St. Louis, Missouri (three groups), field offices for onsite review based on a
            judgmental ranking of pertinent factors.
             1. Analyzed 28 CI function Review and Program Evaluation reviews5 conducted
                during FY 2003 – FY 2005 to identify if significant weaknesses had been reported
                for any field offices in the area of tax return controls.
             2. Canvassed all field offices by email on January 10, 2005, to determine the volume
                of original tax returns on hand at each location and asked that any local issues be
                explained. Received responses from 237 field office groups across 33 field
                offices in existence at that time.
             3. Analyzed IDRS audit trail data to develop field office and group ratios, rates, and
                percentages to use as ranking factors. For example, we compared the volume of
                IDRS command code inputs to request original tax returns from IRS files to the
                volume of tax returns on hand to estimate a turnover rate for tax returns obtained.
         B. For groups selected for onsite review, obtained a copy of the group’s tax return
            inventory (TRI) database.6




5
  Review and Program Evaluation reviews assess local CI function operations and managerial effectiveness on a
3-year cycle to ensure a field office is in alignment with the CI Strategy and Internal Revenue Manual standards.
6
  The CI function has a TRI database system designed to control the request, receipt, inventory, and disposition of
income tax returns processed in and through the CI function. This application is for use at the group level, typically
with one support staff person in the group designated as the user.

                                                                                                             Page 18
                  The Criminal Investigation Function Should Consider Changes to
                   Its Custody of Original Tax Returns and Controls for Accessing
                                   Tax Information Electronically



             1. Selected a random sample of 50 records (plus alternate records) from each
                selected group TRI database and determined if the original tax returns were
                properly in custody and controlled. In total, we compared 430 database records to
                tax returns located in locked security cabinets. The total population in the
                7 groups’ TRI databases was 9,447 records.
             2. Selected a random sample of 50 original tax returns from each selected group’s
                security cabinets and determined if they were properly controlled by the TRI
                database. In total, we compared 350 tax returns located in locked security
                cabinets to database records. The population of tax returns in the cabinets should
                be similar to the 9,447 records, but the exact population was not known with
                certainty due to the possibility that tax returns could have been present but not
                controlled on the TRI database.
             3. Statistically valid random sampling techniques were not used since we did not
                plan to project our reconciliation results to the tax return inventory universe.
         C. Determined the methods used by the selected groups to control the charging-out of
            original tax returns to the possession of special agents or other persons and compiled
            the frequency that tax returns were charged out during FY 2004.
         D. Reviewed the documentation retained by the selected groups regarding their latest
            periodic inventory validation to determine if the validation was done with due
            professional care, if there was a separation of duties in who conducted the
            reconciliations, and if identified database issues were resolved.
III.     Determined if CI function accesses to tax returns and tax information were conducted as
         authorized for tax administration purposes.
         A. Obtained a data extract from the CI function’s Management Information System
            (CIMIS)7 that contained 23,986 Taxpayer Identification Numbers (TIN) for the
            subjects of and related associate persons of investigations open at some point during
            the period of FY 2003 – FY 2004.8
         B. Compared the CIMIS data extract to the IDRS audit trail records (see I.C).
             1. Separated the IDRS audit trail records (i.e., known IDRS accesses by CI function
                personnel) into 11,364 unique TINs that matched to CIMIS subject or associate
                TINs and almost 1.3 million unique TINs that did not match.

7
  The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.
8
  A TIN is a nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the
taxpayer, the TIN is either an Employer Identification Number, a Social Security Number, or an Individual TIN.


                                                                                                             Page 19
                   The Criminal Investigation Function Should Consider Changes to
                    Its Custody of Original Tax Returns and Controls for Accessing
                                    Tax Information Electronically



             2. Selected a random sample of 20 unique TINs that did not match to CIMIS for
                each selected group in the following types of IDRS command codes. In total, we
                pursued support documentation for 292 IDRS inputs.
                  a) Inputs that accessed line item information transcribed from tax returns, from a
                     population of 1,261 unique TINs identified in the 7 groups.
                  b) Inputs from all other command codes used, from a population of 7,544 unique
                     TINs identified in the 7 groups.
             3. Statistically valid random sampling techniques were not used since we did not
                plan to project our results to the IDRS accesses universe. In addition, we limited
                our reviews to these relatively small initial sample sizes because supporting
                documentation, as pursued in step 4 that follows, was generally only informally
                maintained and organized.
             4. Reviewed the IDRS input request forms maintained by each group Compliance
                Support Assistant to determine if such a form could be located that related to the
                specific sampled IDRS input and if information was present on the form to
                support the tax administration purpose for the access (i.e., case number
                relationships and/or explanatory statements.)
             5. Interviewed the Supervisory Special Agents to ask if supporting documentation
                could be retrieved for those instances where an IDRS input request form was not
                located or if further explanation was desired.
         C. Where possible, determined the type of violations being investigated for the
            11,364 unique IDRS audit trail TINs that matched to CIMIS subject or associate TINs
            on the CIMIS data extract or determined the TINs that were associated with the
            4,981 subject investigations9 that were in open status at some point during FY 2004
            that were controlled as nontax-related10 cases.
             1. Separated the IDRS audit trail records (i.e., known IDRS accesses by CI function
                personnel) into 7,846 that were for grand jury cases, and 3,518 that were for
                nongrand jury cases. Separated CIMIS nontax cases into 4,853 that were grand
                jury, and 128 that were nongrand jury.



9
  A subject investigation is when an individual or entity is alleged to be in noncompliance with the laws enforced by
the IRS and there is potential for criminal prosecution. A subject investigation is a full-scale criminal investigation
to gather pertinent evidence to prove or disprove the existence of a violation.
10
   The CI function defines as tax-related those investigations relating to violations of any statute within United States
Code (U.S.C.) Title 26 (Internal Revenue Code) or Title 26 related false claims and conspiracy statutes at
18 U.S.C. §§ 286, 287, or 371 (2004). The most prominent nontax-related statutes the CI function has jurisdiction
for relate to money laundering statutes 18 U.S.C. §§ 1956 and 1957 (2004).

                                                                                                               Page 20
    The Criminal Investigation Function Should Consider Changes to
     Its Custody of Original Tax Returns and Controls for Accessing
                     Tax Information Electronically



2. Analyzed the related CIMIS data for nongrand jury cases to determine that
   21 subject investigations were controlled on CIMIS as nontax-related cases and
   had accesses to tax information via IDRS by CI function personnel.
3. The CI function had not provided the CIMIS case numbers corresponding to TINs
   associated with grand jury cases, so we could not analyze CIMIS data to
   determine if the CI function’s investigation was controlled as a tax-related or
   nontax-related case. Criminal Tax Counsel advised the CI function National
   Headquarters that specific information could not be provided without potentially
   violating the secrecy provisions of the grand jury process.
4. Discussed protocol options with CI function National Headquarters officials that
   would allow us to access the necessary data to perform an audit test (as part of a
   subsequent audit) without compromising grand jury rules.




                                                                               Page 21
              The Criminal Investigation Function Should Consider Changes to
               Its Custody of Original Tax Returns and Controls for Accessing
                               Tax Information Electronically



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Timothy A. Chriest, Lead Auditor
James Mills, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
John M. Caporale, Auditor
Blanche R. Lavender, Computer Specialist




                                                                                      Page 22
              The Criminal Investigation Function Should Consider Changes to
               Its Custody of Original Tax Returns and Controls for Accessing
                               Tax Information Electronically



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 23
   The Criminal Investigation Function Should Consider Changes to
    Its Custody of Original Tax Returns and Controls for Accessing
                    Tax Information Electronically



                                                     Appendix IV

Management’s Response to the Draft Report




                                                             Page 24
The Criminal Investigation Function Should Consider Changes to
 Its Custody of Original Tax Returns and Controls for Accessing
                 Tax Information Electronically




                                                          Page 25
The Criminal Investigation Function Should Consider Changes to
 Its Custody of Original Tax Returns and Controls for Accessing
                 Tax Information Electronically




                                                          Page 26
The Criminal Investigation Function Should Consider Changes to
 Its Custody of Original Tax Returns and Controls for Accessing
                 Tax Information Electronically




                                                          Page 27
The Criminal Investigation Function Should Consider Changes to
 Its Custody of Original Tax Returns and Controls for Accessing
                 Tax Information Electronically




                                                          Page 28
The Criminal Investigation Function Should Consider Changes to
 Its Custody of Original Tax Returns and Controls for Accessing
                 Tax Information Electronically




                                                          Page 29
The Criminal Investigation Function Should Consider Changes to
 Its Custody of Original Tax Returns and Controls for Accessing
                 Tax Information Electronically




                                                          Page 30
